<html>
<title> - INTERNATIONAL CHILD ABDUCTION PREVENTION AND RETURN ACT OF 2011; GLOBAL ONLINE FREEDOM ACT OF 2011; AND INTERNATIONAL FOOD ASSISTANCE IMPROVEMENT ACT OF 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                INTERNATIONAL CHILD ABDUCTION PREVENTION
                 AND RETURN ACT OF 2011; GLOBAL ONLINE
                 FREEDOM ACT OF 2011; AND INTERNATIONAL
                FOOD ASSISTANCE IMPROVEMENT ACT OF 2012

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                   H.R. 1940, H.R. 3605 and H.R. 4141

                               __________

                             MARCH 27, 2012

                               __________

                           Serial No. 112-131

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
73-534                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California<greek-l>
TOM MARINO, Pennsylvania             DONALD M. PAYNE, New Jersey--
ANN MARIE BUERKLE, New York              deceased 3/6/12 deg.
ROBERT TURNER, New York              RUSS CARNAHAN, Missouri
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1940, To ensure compliance with the 1980 Hague Convention on 
  the Civil Aspects of International Child Abduction by countries 
  with which the United States enjoys reciprocal obligations, to 
  establish procedures for the prompt return of children abducted 
  to other countries, and for other purposes.....................     2
  Amendment in the nature of a substitute to H.R. 1940 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey, and chairman, 
    Subcommittee on Africa, Global Health, and Human Rights......    91
H.R. 3605, To prevent United States businesses from cooperating 
  with repressive governments in transforming the Internet into a 
  tool of censorship and surveillance, to fulfill the 
  responsibility of the United States Government to promote 
  freedom of expression on the Internet, to restore public 
  confidence in the integrity of United States businesses, and 
  for other purposes.............................................    52
  Amendment in the nature of a substitute to H.R. 3605 offered by 
    the Honorable Christopher H. Smith...........................   141
H.R. 4141, To direct the Administrator of the United States 
  Agency for International Development to take appropriate 
  actions to improve the nutritional quality, quality control, 
  and cost effectiveness of United States food assistance, and 
  for other purposes.............................................    80
  Amendment to H.R. 4141 offered by the Honorable Karen Bass, a 
    Representative in Congress from the State of California......   169

                                APPENDIX

Markup notice....................................................   182
Markup minutes...................................................   183
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Material submitted for 
  the record.....................................................   184


INTERNATIONAL CHILD ABDUCTION PREVENTION AND RETURN ACT OF 2011; GLOBAL 
     ONLINE FREEDOM ACT OF 2011; AND INTERNATIONAL FOOD ASSISTANCE 
                        IMPROVEMENT ACT OF 2012

                              ----------                              


                        TUESDAY, MARCH 27, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and I want 
to thank each and every one of you for being here.
    Pursuant to notice, the subcommittee meets this afternoon 
to mark up H.R. 1940, now titled the Sean and David Goldman 
International Child Abduction Prevention and Return Act of 
2012; H.R. 3605, the Global Online Freedom Act of 2012; and 
H.R. 4141, now named the Donald M. Payne International Food 
Assistance Improvement Act of 2012.
    [The information referred to follows:]<greek-l>H.R. 
1940 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 3605 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 4141 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Smith. As our members are aware, these measures enjoy 
strong bipartisan support. They have been the subject of 
extensive hearings, and in the case of the Global Outline 
Freedom Act, I first introduced that legislation back in 2006 
after hearings with Google, Yahoo!, and others as well as with 
the administration.
    In like manner, the International Child Abduction Act, now 
named after Sean and David Goldman, was first introduced in 
2009. And in like manner, we had a number of hearings on that 
legislation, vetting language and working on best practices and 
what ought to be included, and that is what is before the 
members today.
    Thus, it is the intent of the Chair to consider these bills 
en bloc, and by unanimous consent include the substitute 
amendments sent to each of you on Friday, and an additional 
amendment sent to you yesterday. All members have copies of 
those documents before them.
    Then after we have concluded our expedited consideration of 
these bills and amendments, I will be glad to recognize first 
myself, then my good friend and colleague, Ranking Member Bass, 
and other members including the vice chair, Mr. Fortenberry, 
and Mr. Turner and others who will then make statements on each 
of the pieces of pending legislation before us.
    All members are given leave to insert written remarks into 
the record should they choose to do so.
    Seeing that a reporting quorum is present, without 
objection, the following measures which the members have before 
them are considered as read, shall be deemed adopted, and are 
hereby reported favorably to the full Committee on Foreign 
Affairs: H.R. 1940, the Sean and David Goldman International 
Child Abduction Prevention and Return Act of 2012; the Smith 
amendment number 64 to H.R. 1940, the amendment in the nature 
of a substitute provided to your offices on Friday.
    [The amendment referred to follows:]<greek-l>ANS to H.R. 
1940 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Smith. H.R. 3605, the Global Online Freedom Act of 
2012, the Smith amendment number 69 to H.R. 3605, the amendment 
in the nature of a substitute provided also to your offices on 
Friday.
    [The amendment referred to follows:]<greek-l>ANS to H.R. 
3605 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Smith. And H.R. 4141, the International Food Assistance 
Improvement Act of 2012, and the Bass amendment, number 35 to 
H.R. 4141 which is the amendment sent to your offices on 
Monday, which adds our good friend and now deceased member, 
Donald Payne's name to the title of that legislation.
    [The amendment referred to follows:]<greek-l>Amendment to 
H.R. 4141 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Smith. Hearing no objection, it is so ordered. The 
amendments and bills are adopted and without objection the 
staff is directed to make technical and conforming changes.
    I now would like to recognize myself to speak to H.R. 1940, 
as amended. I want to thank my colleagues on the subcommittee 
for supporting this legislation, and for your input as we 
crafted its various provisions in H.R. 1940, the Sean and David 
Goldman International Child Abduction and Prevention and Return 
Act of 2012.
    It was David Goldman's unrelenting effort to bring his son 
Sean home from Brazil that first alerted me to the epidemic of 
international parental child abduction in this country. 
According to the U.S. State Department, between 2008 and 2010, 
bereaved parents left behind like David Goldman reported over 
3,200 abduction cases involving more than 4,700 children.
    I had the privilege of joining David in his fight to return 
Sean, and experienced firsthand the maddening obstacles 
encountered by left-behind parents even in countries that have 
signed the Hague Convention on International Child Abduction. 
Foreign courts, endless appeals to run out the clock, 
exploitation of the safeguards in the Convention and prejudice 
against foreigners.
    As David has told this subcommittee in numerous hearings 
that I've chaired on the subject, for the 5\1/2\ years of that 
battle, he lived, and this is his quote: ``In a world of 
despondency and desperation with a searing pain throughout my 
entire being.'' He went on to say, ``Everywhere I turned I saw 
the image of my abducted child.''
    I am pleased to see David Goldman is in the audience today 
and submit this bill in his honor, and in honor of his formerly 
abducted son, Sean. And, frankly, it's in honor of all of the 
parents, and there are several others in the audience today, 
and their abducted children for whom the Hague Convention has 
been a long and bitter disappointment.
    My bill, H.R. 1940, as amended, will encourage effective 
implementation of the Hague Abduction Convention, and create 
strong incentives for compliance and disincentives for non-
compliance by countries that currently enable abductors and 
perpetuate child abuse through weak Convention implementation.
    H.R. 1940, as amended, is also for the left-behind parents 
and bereaved children who have been taken to countries that are 
not party to the Hague Convention. Parents like Michael Elias, 
a combat-injured Iraq veteran from New Jersey whose ex-wife 
used her Japanese consulate connections to abduct little Jade 
and Michael, Jr. after the New Jersey court had ordered 
surrender of passports and joint custody.
    Ms. Nakamura flagrantly disregarded those valid court 
orders telling Michael Elias, and I quote her, ``My country, 
Japan, will protect me.'' Sadly, she was right. Although Japan 
is reportedly prosecuting her for abusing her consulate 
connections, they will not return the children.
    At a hearing last May, Michael Elias told this subcommittee 
that as a father who no longer has his children to hold in his 
arms, ``I cannot deal with the sorrow so I will try my best to 
stay strong and keep fighting for their return. All my hopes 
and dreams for their future now lie in the hands of others.'' 
He continued, ``I am begging our Government to help not only my 
family but hundreds of others, heartbroken families as well, to 
demand the return of our American children who are being held 
in Japan.''
    U.S. Navy Commander Paul Toland, who is here with us with 
some of the left-behind dads from Japan whose children are in 
Japan, also knows firsthand the pain suffered by all of the 
left-behind parents. His daughter, Erica Toland, was living 
with Paul and his wife in Navy housing in Yokohama, Japan, when 
Etsuko took Erica in 2003 and never returned. Tragically, his 
wife passed away in 2007, and yet Commander Toland has 
continually been denied access to his daughter.
    We have, in the past, had hearings with some of the other 
left-behind parents and we will include in this record some of 
their testimonies, and we're planning in about a month to 6 
weeks' time yet another hearing to hear firsthand from those 
families and from those left-behind parents of the plight that 
they face, the obstacles they encounter with our U.S. 
Department of State and the Office of Children's Issues in the 
hope that finally they will get their children home.
    According to the Office of Children's Issues at the State 
Department, there are more than 111 American children being 
held in Japan, others say it's much higher than that, against 
the will of their American parent. More than 40 others are not 
allowed access to their American parent. Japan has yet to issue 
and enforce any court order for the return of a single American 
child abducted to Japan. I look forward to the day, and I 
believe that day will happen soon, when these kids are brought 
home. And I do believe H.R. 1940, as amended, takes us a step 
closer.
    International parental child abduction rips children from 
their homes and lives, takes them to a foreign land and 
alienates them from a left-behind parent who loves them and who 
they have a right to know. Their childhood is disrupted, or 
sometimes is in hiding, as the taking parent seeks to evade the 
law, or to conjure illegal cover for their abusive actions. 
Abducted children often lose their relationship with their mom 
or their dad, half of their identity, and half of their 
culture.
    They are at risk of serious emotional and psychological 
problems, and may experience anxiety, eating problems, 
nightmares, mood swings, sleep disturbances, aggressive 
behavior, resentment, guilt, and fearfulness. As adults they 
may struggle with identity issues, their own personal 
relationships, and parenting.
    All of this has been chronicled over and over again, and is 
one of the main reasons why the Hague Convention was adopted 
back in 1980 in the first place. The body of evidence has only 
exploded over the years since.
    Parental child abduction is child abuse. Too many families 
have been waiting too long for the return of their children. 
Our current system with its endless delays and lack of proper 
accountability has failed far too many. It is time for the 
approach that backs our demands for adherence to international 
obligations with penalties, and makes clear to foes and friends 
alike that our children are our top priority.
    The amendment that was just approved by unanimous consent 
will achieve this goal by giving the President important tools 
to motivate other countries to quickly respond to applications 
for an abducted child's return. For even one case that has been 
pending for over 6 weeks in a foreign country's judicial system 
the President may choose to at least issue a private demarche 
or take more serious actions commensurate with the gravity of 
the case.
    If a country has 10 or more cases of children abducted from 
the U.S., pursuant to this legislation, and those cases are not 
being resolved in a timely manner, or the entity responsible 
for working with the U.S., the central authority, or the 
judiciary, or the law enforcement, are persistently failing to 
fulfill their obligations, the President can take measured, 
effective, and predictable actions to aggressively advocate for 
our children's return. Such actions range from denial of 
certain assistance to prohibiting the procurement of certain 
goods or services from the government or instrumentality 
responsible for the pattern of non-cooperation.
    Of course, the President is directed to consult with the 
government concerned and report to Congress when contemplating 
serious actions. The President is also provided with certain 
waiver authorities that take into account the important 
national interests of the U.S. However, the expectation is that 
the President will use all tools necessary to bring our 
children home in a timely manner, and that the President will 
have to explain the minority of cases where a delineated tool 
cannot be used. And I will put into the record, and it's in the 
legislation, all 17 of the prescribed actions that the 
President can take, and they are serious.
    We patterned it after lessons learned from the 
international--the Trafficking Victims Protection Act of 2000 
which I authored, and the legislation called the International 
Religious Freedom Act which I helped get passed. It was 
authored by my good friend and colleague, Frank Wolf, 
prescribing specific actions to be taken against governments 
that show this non-cooperation, or a pattern of non-
cooperation.
    I would like to now yield to my friend and colleague, Ms. 
Bass, for comments she might have on the child abduction 
legislation.
    Ms. Bass. Thank you. Thank you, Mr. Chair. I just have to 
say as this is my first subcommittee hearing as ranking member 
that I can't not begin by expressing again my sadness for the 
loss of our colleague, Representative Payne, but I am thankful 
for the opportunity to serve as ranking member, and to serve 
alongside of you and your leadership that you've had for so 
many years on these issues.
    It's fitting that during this first subcommittee meeting 
after the loss of our friend and colleague that we're going to 
consider several measures aimed at protecting the most 
vulnerable among us, children, the disenfranchised, and the 
hungry, whom Representative Payne fought to protect throughout 
his career.
    Representative Payne was a leader on international human 
rights issues, and especially concerned with protecting the 
rights of children and young people. And I, of course, want to 
commend you, Chairman Smith, for your dedication to promoting 
adherence to the Hague Convention on the Civil Aspects of 
International Child Abduction, for encouraging nations to adopt 
the Convention, and for consistently pursuing justice for our 
children.
    Last year you convened two subcommittee hearings on 
international child abduction, and during the first of those 
hearings we all heard the heartbreaking stories of parents 
whose children were abducted to a foreign country.
    David Goldman, who is here today, Mr. Goldman, I have to 
tell you that I watched your story for years on TV, and I never 
had any idea, of course, that I would wind up serving in 
Congress and having an opportunity to meet you. I just really 
can't imagine what it was like, what you went through. And I'm 
very happy that you're reunited with your son, and really want 
to congratulate you for your leadership in helping to bring 
that about, Mr. Chairman.
    I know the Elias family is represented by the grandmother 
that is here. Thank you for attending today, and also over the 
time you have shared your story with us.
    This legislation that is offered by Chairman Smith would 
finally give proper due diligence to this often neglected 
crisis by creating an Office on International Child Abductions 
within the State Department, and by expanding the President's 
authority to act decisively to bring these children home.
    The community that I represent in Los Angeles has also been 
impacted by this horrific crime. Several of my constituents 
have reached out to me and told me about their children that 
have been abducted. There's one family that we've been working 
with for quite a while whose child was abducted to Japan, so I 
appreciate you bringing forward this bill and I look forward to 
continuing to support the efforts until all the children are 
returned home. Thank you.
    Mr. Smith. Ms. Bass, thank you so very much, and welcome to 
the subcommittee. And as both you and I and so many others who 
were at Don Payne's funeral know, it was a huge loss to the 
Congress, and a great friend especially of those who are 
suffering the ravages of famine and natural disasters on the 
continent of Africa. But welcome to the subcommittee as ranking 
member, I look forward to working with you.
    I'd like to now yield to the vice chairman of the 
subcommittee, Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for your 
important leadership on this and so many other issues. What 
more important function can our Government undertake than to 
prevent the abduction of American children?
    Thousands of children have been subjected to this abuse. 
Thousands of children have been treated as international pawns. 
Think of the thousands of children who lie silently in their 
beds except for the crying that can perhaps not be heard by 
anyone but themselves.
    A child's pain should know no international boundary, and a 
child's suffering is enough due to the separation of their 
family unit. So, I want to thank you, Mr. Smith, for your 
important leadership.
    International child abduction is too common, and past legal 
and diplomatic barriers have been too high for the families who 
have had to suffer through this problem. Establishing the 
Office of the International Child Abductions within the State 
Department, I'm hopeful, may impart a focused and whole of 
government approach to returning abducted children to the 
United States and preventing more families from the heartbreak 
and difficulties that this has caused. Thank you for your 
leadership.
    Mr. Smith. Thank you very much. The Chair recognizes the 
former U.S. Attorney from Pennsylvania, Mr. Marino.
    Mr. Marino. Thank you, Chairman. As a prosecutor for 18 
years I've had the unfortunate task of dealing with issues that 
are such heartbreaking issues as child abduction from a 
domestic perspective and from an international perspective. And 
I can only thank the chairman for holding this hearing, putting 
this legislation together, that will really put some teeth into 
the laws that The Hague should have implemented a long time 
ago. So, the chairman and, of course, the parents out here and 
the parents that aren't here, and the children that have been 
abducted have my total support, and that is a commitment. Thank 
you.
    Mr. Smith. Thank you very much. The Chair recognizes Mr. 
Turner from New York.
    Mr. Turner. Thank you, Mr. Chair. I was reminded of 
something in another life. I ran an entertainment company, a 
woman named Cathy Mahone came in to sell her television rights 
which ultimately was a TV movie called ``Rescue My Child.'' And 
her 8-year old daughter was abducted following a divorce, and 
falsely sent to Jordan. And failing to get any satisfaction 
from the State Department or through the courts, she took some 
extralegal methods and hired what were called consultants at 
the time, ex-military people, who literally went in and re-
kidnaped the child and got her out.
    This extralegal method has pretty much closed down. The 
principals of the company were a little tired of going to jail 
and getting shot at and all the other things that they had to 
endure over the years. I'm hoping what we've done today will be 
a legal step that will facilitate this, and I applaud you for 
it. Thank you.
    Mr. Smith. Mr. Turner, thank you so very much. The Chair 
recognizes a woman who happens to be both a lawyer and a nurse, 
and has been, like the other members of this subcommittee, 
tenacious in combating human rights, Ms. Ann Marie Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman, and I just want to 
echo my colleagues' thoughts to you. Thank you for your 
leadership on this extremely important issue.
    We sat through, several months ago, a hearing about child 
abduction and listened to the anguished testimony of parents 
who had lost their children, so this piece of legislation will, 
as my colleague said, put teeth into what the Hague Convention 
should be doing.
    It's the right thing to do. As a mother of six children, I 
can only imagine the pain that you've all felt by having your 
child abducted, so we are so pleased to be able to work with 
you to get this passed. Thank you so much.
    Mr. Smith. I want to thank my good friends and colleagues. 
I just want to note before we move on to the Global Online 
Freedom Act, unless my colleagues have anything further to say, 
and you mentioned this, Mr. Turner, the importance of the 
media, television and print, all media, but to bring the 
message forward to sensitize and mobilize people. I would be 
remiss if I didn't note that Dateline did a tremendous public 
service for David and every other left-behind parent, and 
Meredith Vieira is here, and Benita Noel. Benita was the 
producer and was with David throughout that process. Meredith 
carried frequently, almost every day in some cases, vital 
information as to what was happening in real time, and what a 
difference that made. And then got it all together for various 
Dateline specials. And not only did it help David Goldman and 
Sean get reunited, and Sean repatriated to the U.S. with his 
dad, but I do believe it has helped all the other left-behind 
parents.
    And this is still a festering sore when it comes to issues. 
The pain that these men and women suffer is beyond words to 
describe, and yet they continually push hard. Thank you for 
amplifying their concerns in such a magnificent way.
    Any further comments on that legislation? If not, I now 
will move to the consideration of the debate on H.R. 3605, the 
Global Online Freedom Act.
    In December, I introduced H.R. 3605 which was an updating 
of the Global Online Freedom Act that I first introduced, as I 
mentioned earlier, back in 2006. The response to the growing 
global use of the Internet as a tool of censorship and 
surveillance as a means of capturing, apprehending the best and 
the brightest in dictatorship countries all over the world, 
including especially in China.
    Members might recall back in 2006 we had our first hearing 
on this issue in this subcommittee, and I swore in all of the 
leaders from Google, Yahoo!, Cisco, and Microsoft, and the 
answers that they gave at that time were very unavailing. They 
didn't want to tell us what they were doing in places like 
China, but we persisted, we wrote legislation, the Global 
Online Freedom Act, and today we have a refined, and I think, 
an even more effective draft of legislation that moves to the 
committee to try to combat this misuse of the Internet.
    The threat to human rights is very serious. Reporters 
Without Borders just released its Internet enemies list, the 
names of the countries that violate their citizens' online 
freedoms. The reports tell us that China, Vietnam, and Iran are 
the world's biggest prisons for netizens. Other countries are 
not lagging far behind.
    For example, the Government of Pakistan recently announced 
a public bid for companies to help them build their own version 
of China's Great Firewall. The public outcry caused the 
government to withdraw the bid but I'm skeptical that plans for 
the firewall are actually scrapped. Likely this procurement has 
simply been moved behind the scenes and out of public scrutiny.
    Sadly, it's through the assistance of Western companies and 
technologies that this--and this includes American companies 
and technology, that governments like Iran, China, and Syria, 
and many others are transforming the Internet into a weapon of 
mass surveillance.
    Just as we jealously guard our media freedoms and our 
personal freedoms, and would be horrified if American companies 
sold newspaper censorship services abroad, we also need to 
ensure that our companies and our capital markets are not 
censoring the Internet abroad. The Internet holds great 
promise, but also because it can be censored and surveilled, 
the potential of great peril.
    The Global Online Freedom Act is designed to help ensure 
that U.S. companies are not complicit in repression of human 
rights. We need to move now to ensure that fundamental freedoms 
are protected. First, the Global Online Freedom Act requires 
the State Department to beef up its reporting on Internet 
freedom in the annual Country Reports for Human Rights 
Practices, and to identify by name what we call Internet 
restricting countries.
    This country designation will be useful not only in a 
diplomatic context in helping to advance Internet freedom 
through naming and shaming countries, but will also provide 
U.S. technology companies with the information they need to 
make good business decisions in difficult foreign markets.
    Second, the bill requires Internet companies listed on the 
U.S. stock exchanges to disclose to the Securities and Exchange 
Commission how they conduct their human rights due diligence, 
including with regards to the collection and sharing of 
personally identifiable information with repressive countries, 
and the steps they take to notify users when they remove 
content or block access to content.
    This provision of the bill will help democratic activists 
and human rights offenders to hold Internet companies 
accountable by creating a new transparency standard for 
Internet companies. And while we certainly want to hold U.S. 
companies accountable, this provision will also require foreign 
Internet service companies that are listed here in the United 
States, including big name Chinese companies such as Baidu, 
Sohu, and Sina to report this information, as well.
    And, finally, in response to the numerous reports we've all 
seen in the papers recently on U.S. technology being used to 
track down or conduct surveillance of activists through the 
Internet or mobile devices, this bill will prohibit the export 
of hardware or software that could be used for surveillance, 
tracking, and blocking, and the like, to the governments of 
Internet restricting countries.
    Current export control laws do not take into account the 
human rights impact of these exports and, therefore, do not 
create any incentive for U.S. companies to evaluate their role 
in assisting repressive regimes.
    This section will not only help stop the sale of these 
items to repressive governments, but will create an important 
foreign policy stance for the United States that will help 
insure that dissidents abroad know that we are on their side 
and that U.S. businesses are not profiting from this 
repression.
    The export control law is long overdue. Right now the State 
Department spends millions of dollars to develop and deploy 
circumvention tools and other technologies to help dissidents 
get information and to communicate safely. Truly, it is absurd 
for us to allow U.S. companies to export blocking and 
surveillance technologies to these countries only to have the 
State Department then spend money to help dissidents get around 
those same technologies.
    What we do here in the United States is critically 
important to achieving our goals, and I believe that this 
legislation will send a strong message to companies that they 
have a unique role to play in preserving online freedom, and 
that we send an even stronger message to repressive governments 
that the Internet should not become a tool of repression. I 
yield to the ranking member, Ms. Bass.
    Ms. Bass. Thank you, Mr. Chairman.
    Free speech has long been a hallmark of a healthy democracy 
and a free society. For over 2 billion people worldwide, the 
Internet and new communication technologies have become 
unprecedented tools for expanding their ability to speak and 
receive information, participate in political and democratic 
processes, and share knowledge and ideas.
    For over a year now we have witnessed what has been dubbed 
the Arab Spring. In countries throughout the Arab world via the 
Internet and social networking, citizens have communicated, 
organized, and raised awareness of their plights under 
repressive regimes. Sites such as Facebook and Twitter have 
played a major role in these uprisings.
    Whatever you may think about the outcome of those 
movements, one thing is clear; the long suspected power of the 
Internet to bring about political change has been confirmed, 
and that is very positive. The prevalence of these uprisings 
has caused governments to enact stricter policies against 
political dissent and further restrict access to information 
and online networking tools.
    As Representative Payne repeated in our hearing on this 
topic last December, former President Clinton once said that, 
``Trying to control the Internet would be like trying to nail 
Jello to the wall.'' Unfortunately, there are regimes around 
the world that are attempting to do just that, and some with 
relative success.
    Yet determined to share their stories, protestors and 
bloggers living in these countries are still finding ways to 
access the Internet because of the technologies made available 
by companies like Google, Yahoo!, Facebook, Twitter, and 
others. For example, in Syria where there is extremely limited 
freedom of the press and unconscionable repression, activists 
are using an iPhone application to disseminate news and online 
information about their protest against Assad.
    The bill also requires U.S. listed Internet communication 
providers to report on their human rights due diligence with 
regard to foreign policies on Internet privacy and repression.
    While I support the overall goal of the bill, I hope that 
we can continue to refine the language at the full committee 
such it does not adversely impact U.S. companies that are 
providing a tremendous service to many people across the globe 
who have no other way to see beyond their borders, shed light 
on their plights, and mobilize their communities for change. 
But as the chairman pointed out, as a perfect example of a U.S. 
company that would export technology that would block access 
and then we provide funding so that they can go around it is 
exactly the type of abuse that we want to get at.
    So, that said, I commend you, Chairman Smith, for your 
leadership on this issue.
    Mr. Smith. Vice Chairman Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    American leadership and innovation was responsible for the 
remarkable technological breakthrough known as the Internet 
which spurred the advent of globalization and this 
unprecedented industrial revolution of our new century. It has 
become a way of life since then.
    Globalization, of course, carries marvelous potential for 
progress to benefit mankind, but it also involves unprecedented 
risk and challenges, including the challenge of applying 
fundamental principles to the use of new, and vibrant, and 
transformative technologies.
    U.S. companies operating around the world are routinely 
required to abide by local laws of the countries in which they 
operate just as foreign countries are required to abide by U.S. 
law.
    Mr. Chairman, I recall the hearing which you held on this 
topic in the 109th Congress, and at that time the fundamental 
question we addressed there still applies today; whether U.S. 
companies have an obligation to comport themselves in a manner 
consistent with the United States Constitution and the Bill of 
Rights when local laws overseas conflict with the basic 
foundational principles upon which our laws are based.
    The Global Online Freedom Act seeks to integrate these 
foundational human rights principles into the complexities of 
our participation in the vast global technology marketplace. 
So, I urge my colleagues and thank you, as well, Mr. Chairman, 
to continue to support this thoughtfully developed measure. 
And, again, thank you for your tireless efforts in this regard.
    Mr. Smith. Mr. Fortenberry, thank you very much for your 
comments and for your leadership, as well.
    I'd just like to point out that the Global Online Freedom 
Act has had a broad, broad amount of support. This morning we 
received--we just received a letter of support from Yahoo!, 
Freedom House, Amnesty International, and I know T. Kumar is 
here, and thank you for your support, as well as helping us to 
put it together, Human Rights Watch, Access, and a group letter 
signed by 13 leading human rights organizations all in support 
of the Global Online Freedom Act. Without objection, those 
letters will be made a part of the record.
    We now move for debate purposes to the third bill, H.R. 
4141, as amended, the newly named Donald M. Payne, and thank 
you, Ms. Bass, for naming it so out of deep respect for our 
deceased colleague, the Donald M. Payne International Food 
Assistance Improvement Act of 2012.
    This bill was originally introduced--and still it's his 
bill--by Mr. Payne before he passed away on March 6th. The bill 
is based on important recommendations that had been made by the 
Government Accountability Office in a report that they issued 
in May 2011 on ``Better Nutrition and Quality Control Can 
Further Improve U.S. Food Aid,'' as well as other studies on 
the same subject funded by the U.S. Agency for International 
Development.
    As the GAO pointed out in its report, the U.S. spent 
approximately $1.5 billion on emergency food aid in Fiscal Year 
2010 assisting nearly 46.5 million women, men, and children. In 
fact, the U.S. is the world's largest donor of international 
food assistance providing more than half of global food aid 
supplies. It's imperative that this assistance not only satisfy 
people's hunger, but that it meets their fundamental 
nutritional needs, as well.
    The statistics of the prevalence and impact of under-
nutrition are absolutely staggering. It is reported that 3.5 
million children around the world die each year as a direct 
result of under-nutrition. Others who suffer from malnutrition 
are often debilitated for the rest of their lives. Children who 
do not receive adequate nutrition during the first 1,000 days 
of life, beginning with conception through their second 
birthday, suffer from stunted physical and cognitive 
development. They have increased risks of illness, not only in 
early life but also later as adults from such conditions as 
diabetes, cardiovascular diseases, and cancers.
    Mothers who are under-nourished are more often likely to 
have low birth weight babies leading to a multi-generational 
cycle of under-nutrition, and even disability.
    Mr. Payne's H.R. 4141, which the subcommittee has just 
adopted, directs the Administrator of USAID to use currently 
available funds to improve the nutritional quality of U.S. food 
assistance, particularly for vulnerable groups such as pregnant 
and lactating mothers, children under the age of 5, and 
beneficiaries of the U.S. HIV/AIDS programming or PEPFAR.
    Possible measures that may be taken include the adoption of 
new specifications for micronutrient fortified food aid 
products, strengthening assessment of the quality of food 
donations, and improving guidance to implementing partners on 
how to address nutrient deficiencies in certain age recipients.
    H.R. 4141, as amended, will also include nutrition science 
experts in the Food Aid Consultative Group created by the Food 
for Peace Act. The bill calls on the administrator to work 
within this group to improve quality control and cost 
effectiveness of food assistance programs through increased 
coordination and oversight.
    Finally, the USAID Administrator would need to ensure that 
food assistance programs carried out under the Food for Peace 
Act contribute to any U.S. global food security strategy.
    Again, I want to thank Ms. Bass for offering the amendment 
to add Mr. Payne's name to this bill, which is truly a 
remarkable way to honor this wonderful man. Ms. Bass?
    Ms. Bass. Thank you, Mr. Chairman, and thank you for 
accepting the amendment and including this, because we really 
wanted to honor Representative Payne, and we thought this was a 
great way to do it, to change the name of the bill.
    Malnutrition, as you mentioned, is the number one risk to 
health globally accounting for the deaths of 3.5 million 
children under 5 years old, and impairing hundreds of thousands 
of growing minds. This has profound consequences not only for 
the child's future, but also for the long-term health and 
development of families, communities, and societies.
    The human and economic costs of malnutrition are enormous. 
Women, children, and the poor are, of course, the most hit. For 
over 55 years, the United States has been a world leader in 
international food aid delivering lifesaving calories to the 
most vulnerable of populations, often in conflict zones. 
However, while our efforts are great, the ongoing food crisis 
in the Horn of Africa is just one example of how the challenge 
is growing.
    As revealed in recent reports, by the Government 
Accountability Office and Tufts University, there are a number 
of ways in which our food aid initiatives can and must be 
improved including increased nutritional quality, greater 
oversight and quality controls, and an enhanced value chain. 
This bill incorporates these recommendations and ensures that 
our food aid programs are smart, effective, and efficient.
    The bill directs USAID to work with USDA and the Food Aid 
Consultative Group to adopt new specifications for food aid 
products, work to strengthen systems to better assess the types 
and quality of agricultural commodities and products, adjust 
products to cost-effectively meet nutritional needs, develop 
new program guidance to better target recipients, and provide 
improved guidance to implementing partners on how to adequately 
address nutritional deficiencies. It also would ensure that the 
food aid programs are integrated into our global food security 
strategy.
    H.R. 4141 is a wonderful example of Congressman Payne's 
lifelong commitment to addressing the needs of the under-
served, fostering innovation in humanitarian assistance, and 
advancing America's leadership across the globe. Thank you.
    Mr. Smith. Ms. Bass, thank you very much, and I look 
forward to working with you as the new Ranking Member.
    Ms. Bass. Absolutely.
    Mr. Smith. And I would like to thank for the record all the 
members for their constructive help in crafting these bills as 
we take them to the full committee, and then on to the floor, 
and down to the President's desk.
    Without objection the markup is adjourned.
    [Whereupon, at 3:14:06 p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     <F-dash>\<Hoarfrost><acctof><careof>t<star><ellipse><ellipse>
 <acctof>at<box><natural><careof>a<script-l> <bullet><pound><natural> 
        t<star><box> <natural><box><star><pound><natural><star>\

 The Honorable Christopher H. Smith, a Representative in Congress from 
 the State of New Jersey, and chairman, Subcommittee on Africa, Global 
      Health, and Human Rights: Material submitted for the record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Be
                               rmudez deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Iz
                               zard deg._
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Bo
                               wer deg.__
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Pr
                               esidential 
                               actions deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Le
                               tters deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
